                                               EMPLOYMENT AND TRAINING
                                               ADMINISTRATION

                                       Audit
                    General—OfficeofofAudit
           InspectorGeneral—Office




                                               TWO OF ILLINOIS’ ONE-STOP CENTERS HAVE
                                               NOT FULLY IMPLEMENTED THE SEAMLESS
                                               SERVICE CONCEPT
OfficeofofInspector
Office




                                                                         Date Issued: September 30, 2005
                                                                         Report Number: 06-05-011-03-390
U.S. Department of Labor                                SEPTEMPER 2005
Office of Inspector General
Office of Audit                                         Two of Illinois’ One-Stop Centers
                                                        have not Fully Implemented the
BRIEFLY…                                                Seamless Service Concept
Highlights of Report Number: 06-05-011-03-390, to       WHAT OIG FOUND
the Assistant Secretary for Employment and Training
Administration.
                                                        We found that there are issues in two of the State of
                                                        Illinois’ One-Stop’s implementation of the seamless
WHY READ THE REPORT
                                                        One-Stop vision.
The Workforce Investment Act of 1998 mandated
the One-Stop delivery system. It requires states to     The One-Stop organizational structures provide
consolidate their predecessor Wagner-Peyser core        shared administration of the One-Stop centers, but
employment services (ES) with other job training        better collaboration and coordination will enhance
programs to form one seamless service delivery          seamless service delivery.
system for its customers.
                                                        One-Stop partners did not share a statewide
This includes having one overall application process    common intake system for the One-Stop service
with comprehensive services available on site with      delivery system.
minimal referrals. However, the law provides
flexibility in how the states and local areas           Local boards established MOUs, but greater detail
implement this vision, which allows them to address     would enhance the One-Stop concept.
issues that may be unique to their area.
                                                        WHAT OIG RECOMMENDED
WHY OIG DID THE AUDIT
                                                        The results of this audit are provided as information
The Department of Labor’s (DOL) Employment and          for the Assistant Secretary for Employment and
Training Administration (ETA) views the One-Stop        Training.
system as the cornerstone of the new workforce
investment system, which unifies numerous training,     The State of Illinois agreed that some of the issues
education, and employment programs into a single,       identified exist in the One-Stops audited, but that the
customer-friendly system in each community. ETA         results do not indicate Statewide conditions. They
envisions one overall service system where One-         have already identified the issues in their own
Stop truly means one stop.                              Statewide review of the One-Stop system, and have
                                                        already initiated implementation of strategies to
The OIG conducted a performance audit of the State      enhance their workforce system.
of Illinois’ One-Stop system to determine if the
seamless vision was implemented within the State of
Illinois. Our audit included two One-Stops within the
State of Illinois, and covered the One-Stops
organizational structure, management information
system integration, and memoranda of
understanding, implemented subsequent to July 1,
2001.

READ THE FULL REPORT
To view the report, including the scope,
methodology, and full agency response, go to:

http://www.oig.dol.gov/public/reports/oa/2005/06-
05-011-03-390.pdf
Two of Illinois’ One-Stop Centers have not Fully Implemented the Seamless Service Concept




Table of Contents
                                                                                                                    PAGE

EXECUTIVE SUMMARY ................................................................................................ 2


ASSISTANT INSPECTOR GENERAL’S REPORT ........................................................ 5

   1. The organizational structure is not fully seamless at the two One-Stop
      centers we audited ................................................................................................ 6

   2. The State has not established a common intake system.................................. 9

   3. The Local Boards have established MOUs, but they do not facilitate the
      delivery of services and coordination between partner programs ................ 10

APPENDICES ............................................................................................................... 13

   A. Background ........................................................................................................ 15

   B. Objective, Scope, Methodology, and Criteria .................................................. 16

   C. Acronyms and Abbreviations ........................................................................... 19

   D. Agency Response to Draft Report.................................................................... 21




U.S. Department of Labor—Office of Inspector General                                                                       1
Report Number: 06-05-011-03-390
Two of Illinois’ One-Stop Centers have not Fully Implemented the Seamless Service Concept




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




2                                         U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 06-05-011-03-390
Two of Illinois’ One-Stop Centers have not Fully Implemented the Seamless Service Concept



                        Executive Summary
The Workforce Investment Act of 1998 mandated the One-Stop delivery system. It
requires states to consolidate their predecessor Wagner-Peyser core employment
services (ES) with other job training programs to form one seamless service delivery
system for its customers.

The Department of Labor’s (DOL) Employment and Training Administration (ETA) views
the One-Stop system as the cornerstone of the new workforce investment system,
which unifies numerous training, education, and employment programs into a single,
customer-friendly system in each community. ETA envisions one overall service
system where One-Stop truly means one stop. This includes having one overall
application process with comprehensive services available on site with minimal
referrals. However, the law provides flexibility in how the states and local areas
implement this vision, which allows them to address issues that may be unique to their
area.

The purpose of our audit was to determine how the State of Illinois implemented this
seamless vision. We performed audit work at the State’s Department of Commerce and
Economic Opportunity (DCEO) and at two One-Stop centers. We focused our objective
to answer the following three questions:

   1. Does the One-Stop organizational structure support the seamless system
      concept?
   2. Has one overall application process been established to support the One-Stop
      service delivery system?
   3. Are Memoranda of Understanding (MOUs) established between partners to
      implement a system that supports the One-Stop concept?

Results

Based on our audit work at the State level and two One-Stop centers, we found that:

   1. The organizational structure is not fully seamless at the two One-Stop centers we
      audited.
   2. Illinois has not established a common intake system. Labor-funded program
      services and activities were reported in two different State agencies’
      Management Information System (MIS). Partner information systems are not
      linked, leading to duplication of effort.
   3. The Local Boards have established MOUs, but they do not facilitate the delivery
      of services and coordination between partner programs.




U.S. Department of Labor—Office of Inspector General                                        3
Report Number: 06-05-011-03-390
Two of Illinois’ One-Stop Centers have not Fully Implemented the Seamless Service Concept


These results indicate issues identified in two of Illinois’ One-Stop centers and are not
intended to represent conditions in the State’s workforce system as a whole. These
issues are provided to DCEO officials in order to assist them in the continued
streamlining of their workforce system.

There are no official recommendations provided in this report. We would encourage
DCEO to continue with the progress that has been made in implementation of a
seamless One-Stop system.

Agency Response

The Illinois Department of Commerce and Economic Opportunity (DCEO) has indicated
that they already realize that there were some issues to be resolved in providing a
comprehensive seamless service workforce system. They completed their own review
of their workforce system, and are using the results in providing better integration of
services.

DCEO does not believe that a review of two centers provides a representative sample
of their State’s One-Stop Centers.

DCEO recognizes that some of the issues identified in this report exist, and have
already taken action in making numerous enhancements to their service delivery
system in the State of Illinois.


OIG Conclusion

This audit was narrowly focused on three elements of service delivery at two of the
State’s One-Stop centers. While the issues identified at the two One-Stops may not
indicate issues that exist Statewide, this report was intended to provide DCEO with
information on issues that may affect seamless service delivery.

The State’s review was not cited in this report because the objective of this audit was to
determine actual conditions at two One-Stops, regardless of plans, policies, or other
studies. After having identified some issues for their consideration, it is evident that
DCEO is taking steps to further streamline their service delivery, even beyond the scope
of the issues identified in this audit. We are removing our recommendations and
providing our results for DCEO’s consideration as they continue to enhance their One-
Stop system.




4                                         U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 06-05-011-03-390
Two of Illinois’ One-Stop Centers have not Fully Implemented the Seamless Service Concept




U.S. Department of Labor                       Office of Inspector General
                                               Illinois, DC 20210




                         Assistant Inspector General’s Report



Ms. Emily Stover DeRocco
Assistant Secretary
 for Employment and Training


The Workforce Investment Act of 1998 (WIA) mandated the One-Stop delivery system.
It requires states to consolidate their predecessor Wagner-Peyser core employment
services (ES) with other job training programs to form one seamless service delivery
system for its customers. ETA envisions one overall service system where One-Stop
truly means one stop. This includes having one overall application process with
comprehensive services available on site with minimal referrals. However, the law
provides flexibility in how the states and local areas implement this vision.

The seven guiding principles of the WIA are:

    •   streamlined services,
    •   empowering individuals,
    •   universal access,
    •   increased accountability,
    •   strong role for local workforce investment boards and the private sector,
    •   state and local flexibility, and
    •   improved youth programs.

Our audit focused on the principles of streamlined services, universal access, and state
and local flexibility. The audit objective was to determine if an environment conducive to
the seamless service concept has been implemented in the State of Illinois. We
performed audit work at the State’s Department of Commerce and Economic
Opportunity (DCEO) and at two One-Stop centers. In order to meet our objective, we
reviewed the following elements:

   •    organizational structure
   •    management information system
   •    memoranda of understanding




U.S. Department of Labor—Office of Inspector General                                        5
Report Number: 06-05-011-03-390
Two of Illinois’ One-Stop Centers have not Fully Implemented the Seamless Service Concept


Based on our review of these elements, we found that the State of Illinois has made
progress toward implementing a One-Stop system, but the two One-Stop centers
audited have not fully implemented a seamless service system.

We conducted the audit in accordance with Government Auditing Standards for
performance audits. Our audit scope, methodology, and criteria are detailed in
Appendix B.


Objective 1 – Does the One-Stop organizational structure support the seamless
service concept?

Results

The organizational structure is not fully seamless at the two One-Stop centers we
audited.

The underlying purpose of the One-Stop concept is the coordination of programs,
services and governance structures so that the customer has access to a seamless
system of workforce services.

In 2003, the Governor transferred the responsibility for the administration of the WIA
Title I programs from the IDES to DCEO. The stated objective of this reorganization
was to allow for better coordination between Illinois' workforce and economic
development programs.

The reorganization placed the WIA required partners in three different State agencies.
The agencies include:

    •   Illinois Department of Employment Security (IDES),
             o responsible for Unemployment Insurance, Employment Service, TRA,
                 NAFTA, Veteran Services, and Labor Market Information;
    •   Department of Commerce and Economic Development (DCEO),
             o responsible for WIA and TAA programs; and
    •   Illinois Department of Human Services (DHS),
             o responsible for TANF, Food Stamp E&T and Division of Rehabilitation
                 Services.

The Illinois Workforce Investment Board (IWIB) states that the "development of the local
One-Stop delivery systems . . . will require collaboration and coordination among a
much wider range of partners than required in the past.” However, at the two centers
audited, we found a lack of collaboration and coordination between the center partners.
At the centers audited, we found:




6                                         U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 06-05-011-03-390
Two of Illinois’ One-Stop Centers have not Fully Implemented the Seamless Service Concept




    •   Access to all services is limited at the One-Stop centers due to structural
        obstacles, and
    •   Institutional barriers and resource issues continue to challenge achievement of
        the statewide vision.

   A. Access to all services is limited at the One-Stop centers due to structural
      obstacles.

The employment service and WIA programs are operated and managed largely
independently of each other. This is evidenced by:

    •   a lack of coordination between partners,
    •   management information systems (MIS) that are not compatible, and
    •   the lack of communication between the separate MIS.

A more coordinated emphasis would be consistent with ETA’s vision of the proper
integration of services. According to 20 CFR 652 et al., Workforce Investment Act; Final
Rules states that:

         . . . Streamlining services through better integration at the street level in
        the One-Stop delivery system. Programs and providers will co-locate,
        coordinate and integrate activities and information, so that the system as a
        whole is coherent and accessible for individual and businesses alike.

At the two centers audited, we found the IDES manager and the WIA contractor are
responsible for day-to-day operations. Each program manager is independently
responsible for overseeing activities of their respective staff and programs. Though
there is some limited coordination, the IDES manager has ultimate responsibility for the
facilities operations. At one center, documentation, including the “Management
Agreement” cites the IDHS as an additional member of the consortium management
team. However, observations and interviews showed that they are not physically
located in the same facility, thereby, precluding that possibility.


   B. Institutional barriers and resource issues continue to challenge
      achievement of the statewide vision.

At the centers audited, partners cited specific issues that continue to challenge
achievement of the statewide vision, including:

   •    Communication barriers that hinder cooperation between partners,
   •    Staffing shortages, and
   •    Resistance to cultural and system change.




U.S. Department of Labor—Office of Inspector General                                        7
Report Number: 06-05-011-03-390
Two of Illinois’ One-Stop Centers have not Fully Implemented the Seamless Service Concept



Communication barriers hinder cooperation between partners. For example, when the
local board makes a decision, it is not always clear whose responsibility it is to inform
the partners, and there is ambiguity about who is responsible for implementation.

Partners cited issues with internal partner competition, and a lack of staff partner
meetings to collaborate on and coordinate activities, excluding opportunities for the
partners to work together more cohesively.

Staffing shortages cause excessive waiting and a lack of direction for program
participants. A specific example cited is the lack of center greeters. Greeters expedite
customer flow by directing them to the services and resources needed. This avoids
excessive waiting in line, and directs clients to the appropriate services. There was
relative agreement at the center level that greater resources system-wide are required
to make the One-Stop concept work.

Overcoming resistance to cultural and system change was citied as an impediment to
effective service integration. Partners cited a lack of a driving force pushing full
integration, thus the pre-existing organizational structures and resistance to change are
the norm. Center staff will improvise to help out some partners on an ad hoc basis, but
the overall lack of inter-program knowledge and the absence of physical co-location of
some partners inhibit service integration. Beyond that, institutional barriers, including
political and work unit issues, are entirely beyond the control of any given One-Stop
center or local board.

Agency Response

The State contends that their team oriented approach is implemented to allow partners
to resolve issues, regardless of locations. They are responding to the issue of limited
resources by moving toward a virtual One-Stop system. Their issues concerning
cultural and system change issues were cited in their baseline study, and will address
the integration issues by putting a greater emphasis on technology and relying less on
personnel to deliver more effective and consistent service to their customers.

OIG Conclusion

We agree that a team approach is an effective manner in which to resolve issues. The
issue that we emphasize is that some partners cite a lack of interaction that would be
needed to ensure the successful implementation of the team approach. With DCEO’s
identification of this and other cultural issues in their baseline study, we are removing
our recommendation and providing this information for ETA’s follow-up action.




8                                         U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 06-05-011-03-390
Two of Illinois’ One-Stop Centers have not Fully Implemented the Seamless Service Concept




Objective 2 – Has one overall application process been established to support the
One-Stop service delivery system?

Results

The State has not established a common intake system.

The DOL, through WIA regulations, envisions a variety of programs using common
intake, case management and job development systems to take full advantage of the
One-Stops’ potential for efficiency and effectiveness. The WIA regulations indicate that
a major benefit of the One-Stop structure is to increase administrative efficiency, as well
as provide more seamless service to the customer through the use of common intake
systems.

The State has no single MIS for Labor-funded programs to establish a common intake
system. Other partners operate their own systems with no linkages to the Labor-funded
systems.

   A. Labor-funded program services and activities were reported in two
      different State agencies’ MIS.

DCEO and IDES use different MIS to report their services and clients information.
DCEO administers and maintains the Illinois Workforce Development System (IWDS)
for WIA services. The IDES administers and uses the internet-based Illinois Skills
Match (ISM) system as its main labor-exchange tool for ES services. The systems are
not integrated and do not communicate electronically, leading to duplication of effort.
Case managers must reenter client information into their system when clients are
enrolled into their programs, with dual records being maintained.

   B. Non-Labor partner’s MIS are not linked, leading to duplication of effort.

Even though some non-Labor partners are represented at the center, they cannot
access client information from ISM or IWDS. Also, they cannot access their own
systems at the center and must perform data intake away from the center, at their main
office, in order to serve clients. These barriers lead to duplication of effort and do not
exemplify the seamless system concept.

Agency Response

The DCEO is using the two MIS system they inherited, and are currently implementing
Illinois workNet to provide a more user-friendly web-based interface that will provide
better access to information. In this new system, partners should be able to access the
information they need, without the need to implement major MIS system changes at
each agency.



U.S. Department of Labor—Office of Inspector General                                         9
Report Number: 06-05-011-03-390
Two of Illinois’ One-Stop Centers have not Fully Implemented the Seamless Service Concept




OIG Conclusion

The lack of a common intake system being utilized at the two One-Stops audited would
be an issue common to the State’s One-Stops. However, the DCEO has identified this
issue and is working to resolve the issue with the implementation of DCEO’s workNet
system. We remove our recommendation and provide this information for ETA’s
continued monitoring.


Objective 3 – Are Memoranda of Understanding (MOUs) established between
partners to implement a system that supports the One-Stop concept?

Results

The Local Boards have established MOUs, but they do not facilitate the delivery
of services and coordination between partner programs.

The MOUs do not describe partner roles, responsibilities, coordination, and the method
of service delivery. The delivery of services is only addressed in a goal-oriented
fashion.

According to the WIA, Chapter 3, Section 121(c), the local Board, with the agreement of
the chief elected official, shall develop and enter into a memorandum of understanding
(between the local Board and the One-Stop partners). Each memorandum of
understanding shall contain:

       (i) the services to be provided through the One-Stop delivery system;
       (ii) how the costs of such services and the operating costs of the system will be
       funded;
       (iii) methods for referral of individuals between the One-Stop operator and the
       One-Stop partners, for the appropriate services and activities; and
       (iv) the duration of the MOU and the procedures for amending the MOU during
       the term of the MOU.

ETA cited the need for strong MOUs in its “Final Rule” implementing WIA. 20 CFR Part
662 et al., provides that “the MOU . . . be the vehicle for addressing the specified issues
of services, costs and referrals. . . .” Additionally, MOUs are the “vehicle through which
the partner’s role in the local system is detailed.” The regulations also cite the need to
“. . . promote strong MOUs” and how MOUs are the “ . . . primary means for
coordinating the services of the One-Stop partners [and] are the foundation of the entire
workforce investment system.”

At center one, partner responsibilities in the overall One-Stop operation are not defined,
and there is little or no discussion of the coordination of services amongst the partners.


10                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 06-05-011-03-390
Two of Illinois’ One-Stop Centers have not Fully Implemented the Seamless Service Concept




Likewise, job seeker services and referral services are stipulated in a broad sense.
There is no methodology for referral of individuals between the One-Stop operator and
the partners.

At center two, even though partner responsibilities are mentioned, they lack specifics on
methods and approaches in integration of services and seamless service delivery.
The MOU states that the operator "coordinate services and resources at the center
among all partners to achieve a seamless system,” but the MOU does not specifically
define how to accomplish this. As with the other center, there is no methodology or
standard operating procedures for referral of individuals between the One-Stop
partners.

Agency Response

The State is concerned that the issues identified do not necessarily exist statewide.
The State is already taking tangible steps to address the issues.

OIG Conclusion

While the issues identified may not exist Statewide, they were identified at the One-
Stops audited. We are encouraged that the State is already addressing the issues, and
we are making these results available for ETA’s consideration in monitoring DCEO’s
progress.


We conducted the audit in accordance with Government Auditing Standards for
performance audits. Our audit scope, methodology, and criteria are detailed in
Appendix B.




Elliot P. Lewis
March 31, 2005




U.S. Department of Labor—Office of Inspector General                                        11
Report Number: 06-05-011-03-390
Two of Illinois’ One-Stop Centers have not Fully Implemented the Seamless Service Concept




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




12                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 06-05-011-03-390
Two of Illinois’ One-Stop Centers have not Fully Implemented the Seamless Service Concept




Appendices




U.S. Department of Labor—Office of Inspector General                                        13
Report Number: 06-05-011-03-390
Two of Illinois’ One-Stop Centers have not Fully Implemented the Seamless Service Concept




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




14                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 06-05-011-03-390
Two of Illinois’ One-Stop Centers have not Fully Implemented the Seamless Service Concept




                                                                               APPENDIX A
BACKGROUND

The Workforce Investment Act of 1998 mandated the One-Stop delivery system. The
WIA requires states to consolidate their predecessor Wagner-Peyser core employment
services (job referrals, job bank, employment assistance) with other job training
programs (currently WIA Title I programs, Trade Adjustment Assistance, Veterans,
Older Worker, Housing and Urban Development employment and training, and
Community Development Block Grant employment and training) to form one seamless
service delivery system for its customers. Optional partners include the Temporary
Assistance for Needy Families program and Food Stamp employment, training, and
work programs.

The WIA gives flexibility to the state and local governments to set up their One-Stop
centers as they determine will best serve their local clients. However, the following core
services must be made available: skills assessments, job search and placement
assistance, job statistics, performance and cost information on training providers,
performance information on One-Stop service delivery, accurate supportive service
referrals, information on filing UI claims, assistance in establishing eligibility for various
financial aid programs, and follow up services.

DOL states in the FY 2001 and 2002 annual reports:

       One-Stop Career Centers provide the focal point for meeting the
       challenges of a global economy. Through the One-Stop Centers,
       communities can build the local partnerships and organize the workforce
       development services that enable adults to acquire the skills needed for
       jobs and career changes that lead to high wages and for businesses to
       meet their ongoing recruitment and human services needs.

ETA envisions one overall service system, where One-Stop truly means one stop. This
includes having one overall application process with comprehensive services available
on site with minimal referrals. This audit report provides ETA with information on how
the State operates its One-Stop system to carry out seamless service delivery.




U.S. Department of Labor—Office of Inspector General                                        15
Report Number: 06-05-011-03-390
Two of Illinois’ One-Stop Centers have not Fully Implemented the Seamless Service Concept


                                                                               APPENDIX B
OBJECTIVE, SCOPE, METHODOLOGY, AND CRITERIA

Objective

Our audit objective was to determine if an environment conducive to the seamless
service concept was implemented in the State of Illinois.

Scope

Our audit focused on the WIA principles of streamlined services, universal access, and
state and local flexibility. We determined these would best measure the State’s
implementation of their One-Stop system.

Our analysis of One-Stop center operations was based on the period July 1, 2001,
through April 1, 2004.

Sampling was performed in two stages – first states were selected, then One-Stop
centers within those states were selected. States were selected based on:

         •   TANF presence
         •   geographic dispersion
         •   population.

Illinois was selected as a State without TANF co-located. We defined TANF co-located
as: those states that listed a significant number of centers (as compared to the total
number of centers in the state) with TANF eligibility and/or TANF employment and
training activities. Those states with TANF co-located centers were identified from a
GAO survey.

Centers were judgmentally selected based on demographic and geographic factors.
Centers are not identified due to the limited number included in the audit work, and
agreements with State and local staff to encourage an open dialogue.

We judgmentally selected one urban and one suburban area One-Stop Center for
review. The urban One-Stop center was selected due to:

     •   its diverse population mix,
     •   the high relative level of unemployment, and
     •   its centralized location in the city.

The other center was selected due to:

     •   its location in a less populated area,
     •   having high relative unemployment, and
     •   its distance from any large urban areas.

16                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 06-05-011-03-390
Two of Illinois’ One-Stop Centers have not Fully Implemented the Seamless Service Concept




Evidence was obtained primarily through documenting, interviewing of State and center
staff and observations of operations. Please see “Methodology” for organizational work
performed and client database analysis.

Methodology

Work was performed at three levels.

   •   At the Federal level, we:
           o Interviewed key workforce staff to gain an understanding of the seamless
              service delivery concept.
           o Obtained and reviewed laws, directives, and regulations pertaining to
              One-Stop operations.

   •   At the State level, we:
           o Obtained and reviewed their annual WIA plan, 5-year strategic plan, and
              organizational chart.
           o Interviewed key staff responsible for One-Stop operations;
           o Obtained and reviewed policy directives issuing guidance regarding One-
              Stop operations.
           o Obtained and reviewed MOUs to determine coordination efforts;
           o Discussed the state MIS structure to gain a general understanding of the
              client information flow.

   •   At the One-Stop centers we:
           o Obtained and reviewed local strategic plan, policies and procedures, and
              other documents to understand how One-Stop services are provided.
           o Interviewed center partners and performed a center walk-through to
              understand how the center operates.
           o Met with MIS staff to understand how One-Stop service data is reported
              and the systems used by the various programs at the center.
           o Obtained and reviewed MOUs for compliance with WIA requirements, and
              to further understand how the One-Stop center is intended to operate.
           o Conclude whether mandatory and optional partners are served directly by
              the center or through referrals.

Our audit work inherently included an assessment of the general internal controls used
in the general operation of Illinois’ workforce system. Our audit procedures included an
assessment of the workforce system structure and operations.




U.S. Department of Labor—Office of Inspector General                                        17
Report Number: 06-05-011-03-390
Two of Illinois’ One-Stop Centers have not Fully Implemented the Seamless Service Concept




Criteria
We used the following criteria to perform this audit:

     •   WIA Section 121, Establishment of One-Stop Delivery Activities
     •   WIA Final Rules (20 CFR Part 662) dated August 11, 2000
     •   H.R. 1261, “Workforce Reinvestment and Adult Education Act of 2003”
     •   S. 1627, “Workforce Investment Act Amendments of 2003”




18                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 06-05-011-03-390
Two of Illinois’ One-Stop Centers have not Fully Implemented the Seamless Service Concept


                                                                               APPENDIX C
ACRONYMS AND ABBREVIATIONS



   DCEO       Department of Commerce and Economic Opportunity
   DHS        Department of Human Services
   DOL        Department of Labor
   ES         Employment Services
   ETA        Employment and Training Administration
   GAO        Government Accountability Office
   HHS        Department of Health and Human Services
   IDES       Illinois Department of Employment Security
   ISM        Illinois Skills Match
   IWDS       Illinois Workforce Development System
   IWIB       Illinois Workforce Investment Board
   MIS        Management Information System
   MOU        Memorandum of Understanding
   NAFTA      North American Free Trade Agreement
   OIG        Office of Inspector General
   TAA        Trade Adjustment Assistance
   TANF       Temporary Assistance to Needy Families
   UI         Unemployment Insurance
   WIA        Workforce Investment Act
   WtW        Welfare to Work




U.S. Department of Labor—Office of Inspector General                                        19
Report Number: 06-05-011-03-390
Two of Illinois’ One-Stop Centers have not Fully Implemented the Seamless Service Concept




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




20                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 06-05-011-03-390
Two of Illinois’ One-Stop Centers have not Fully Implemented the Seamless Service Concept


                          APPENDIX D
AGENCY RESPONSE TO DRAFT REPORT

   Department of Commerce and Economic Opportunity’s Response to Draft Report

The DCEO responded by incorporating their comments directly into their electronic copy
of the Draft audit report. Their comments are shown below, following the relevant Draft
report statements, and are contained in brackets and emphasized with italics.

______________________________________________________________________
Based on our audit work at the State level and two One-Stop centers, we found that:

   4. The organizational structure is not fully seamless at the two One-Stop centers we
      audited.
      [DCEO does not agree with the statement above that the WIA Act of 1998 says “
      It requires states to consolidate their JTPA Wagner-Peyser core employment
      programs (ES) with other job training programs to form one seamless service
      delivery system for it’s customers”. What that Act actually says is that states will
      provide better access as stated in Section 134 (c)(2). Under the proposed
      reauthorization, consolidation is being considered but it is not a current
      requirement. The reviewers did not take into account that Illinois designed their
      One-Stops to meet the original requirements, not the requirements as stated in
      this report. WIA regulations gave states the latitude to design One-Stop centers
      using any one or more of those strategies stated in the law. Illinois originally
      employed two of those strategies, co-location and cross-training. However, this
      initial design of Illinois One-Stop system was created by the prior administration
      and does not reflect the current administration’s vision for the One-Stops. The
      new administration recognized almost immediately that there were areas of WIA
      operations that needed to be improved, and undertook a complete review of the
      entire workforce service delivery system. As a result of that review, DCEO made
      a critical decision to begin greater investment in one of the strategies noted in the
      existing regulation, which states technology can be used to provide increase
      access to mandated partner services as a way to meet the requirements of the
      law. DCEO has now begun the development of a virtual One-Stop system, Illinois
      workNet (www.illinoisworknet.com), which we believe will provide for increased
      access and better integration of services without having to create a huge data
      system to support it. At the opening conference reviewers were informed of the
      Illinois Baseline study on the workforce system and our new One-Stop strategy
      but it is not mentioned in any part of the body of this report and it is our feeling
      these two factors our critical to understanding how the Illinois One-Stop system
      will be developed and operated in the future.]

   5. Illinois has not established a common intake system. Labor-funded program
      services and activities were reported in two different State agencies’
      Management Information System (MIS). Partner information systems are not

U.S. Department of Labor—Office of Inspector General                                        21
Report Number: 06-05-011-03-390
Two of Illinois’ One-Stop Centers have not Fully Implemented the Seamless Service Concept


        linked, leading to duplication of effort.
        [Again the law does not require one system and under the law each state can
        develop their own process for providing access to information across partner
        agencies. The two agencies referred to above do have a data sharing agreement
        as well as each local One-Stop has access to the systems by using specific user
        IDs. Other reasons for Illinois not having one MIS are the following:

         1) significant statutory changes including changes to enacting clauses for each
        agency impacted as well as the State Finance Act which would have to be
        approved by both chambers of the Illinois General Assembly;

         2) the cost for development and maintenance of such a system plus the
        necessary infrastructure to support it;

         3) additional millions of dollars to develop a unified computer system that serves
        all the needs of many diverse programs and partners while maintaining high
        standards for data security and client privacy. Each partner has its own data
        collection and reporting requirements that make deployment of a unified system
        difficult to program. In some of the partner agencies, WIA programs represent a
        small portion of their overall operation. It is not reasonable from an operational
        and budgetary perspective to require a major MIS overhaul to handle an issue
        that represents such a small percentage of the partner’s overall activity.


        DCEO inherited this system. We recognize the inherent issues of utilizing two
        systems and through our Illinois workNet system we hope to resolve this issue in
        the future. ]


     6. The Local Boards have established MOUs, but they do not facilitate the delivery
        of services and coordination between partner programs.
        [DCEO is undertaking a review of MOU implementation and review processes
        and the Department has begun to establish a regional management structure
        that will be more closely involved in both the development and oversight of the
        MOUs. Again this is part of what was recommended in our Baseline study. ]


We recommended that the Assistant Secretary for Employment and Training:

     1. Assist the State of Illinois in addressing the challenges identified in the two
        centers. [DCEO would appreciate any support from the Assistant for
        Employment and Training in implementing our new vision for One-Stop Centers
        as outlined in our baseline report. ]



22                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 06-05-011-03-390
Two of Illinois’ One-Stop Centers have not Fully Implemented the Seamless Service Concept


   2. Assist the State to coordinate with all partners to develop, implement, and
      encourage participation in a common intake system for all partners.
      DCEO is now working with all its partners to pilot Illinois workNet which is
      designed to interface with all partners and provide increased access to core
      information and services.

   3. Require that the State develop effective and functional memoranda of
      understanding, to help facilitate coordination and cooperation between all
      partners.
      DCEO established a new policy unit in April 2005 and a planning manager was
      hired in September 2005. The Policy Development and Planning units will work
      closely together to improve our coordination and cooperation among partners in
      developing a more effective MOU process. Also by working with our Regional
      Managers we will improve the ongoing monitoring and review of the MOUs.


Results and Finding: The organizational structure is not fully seamless at the two
One-Stop centers we audited.

In 2003, the Governor transferred the responsibility for the administration of the WIA
Title I programs from the IDES to DCEO. The stated objective of this reorganization
was to allow for better coordination between Illinois' workforce and economic
development programs.
USDOL encourages workforce programs to be housed in the state economic
development agency. DCEO is making progress by focusing workforce development
toward economic development. Our new Critical Skills Shortage Initiative is but one
example of the merging of workforce and economic development efforts.



The Illinois Workforce Investment Board (IWIB) states that the "development of the local
One-Stop delivery systems . . . will require collaboration and coordination among a
much wider range of partners than required in the past.” However, at the two centers
audited, we found a lack of collaboration and coordination between the center partners.
At the centers audited, we found:

    •   Access to all services is limited at the One-Stop centers due to structural
        obstacles, and
    •   Institutional barriers and resource issues continue to challenge achievement of
        the statewide vision.
        DCEO believes a review of two centers does not provide a representative
        sample of the One-Stop Centers. It is clear the reviewers measured the two
        One-Stop Centers by their own definition of seamlessness, rather than what was
        actually required by law. Illinois workNet will address both physical and
        institutional barriers by providing easier access to information.



U.S. Department of Labor—Office of Inspector General                                        23
Report Number: 06-05-011-03-390
Two of Illinois’ One-Stop Centers have not Fully Implemented the Seamless Service Concept




     C. Access to all services is limited at the One-Stop centers due to structural
        obstacles.

The employment service and WIA programs are operated and managed largely
independently of each other. This is evidenced by:

     • a lack of coordination between partners,
     • management information systems (MIS) that are not compatible, and
     • the lack of communication between the separate MIS.
     See comments under Executive Summary regarding Illinois workNet.


At the two centers audited, we found the IDES manager and the WIA contractor are
responsible for day-to-day operations. Each program manager is independently
responsible for overseeing activities of their respective staff and programs. Though
there is some limited coordination, the IDES manager has ultimate responsibility for the
facilities operations. At one center, documentation, including the “Management
Agreement” cites the IDHS as an additional member of the consortium management
team. However, observations and interviews showed that they are not physically
located in the same facility, thereby, precluding that possibility.

The reviewers fail to specifically describe the lack of coordination between partners.
They describe the IDES manager as having ultimate responsibility for the facility. As
IDES is a partner, the reviewers do not explain why this in an issue. Lease holders vary
by facility.

The Illinois One-Stop system is set up to achieve consensus via a management team
oriented approach to operations. The DCEO Baseline study indicated that co-location
does not necessarily ensure coordination. The centers work well when this team
oriented approach is implemented effectively because it allows the partners to work
together to resolve issues, even if they are not under one roof. It may not have been
evident at these two sites.
     D. Institutional barriers and resource issues continue to challenge
        achievement of the statewide vision.

Communication barriers hinder cooperation between partners. For example, when the
local board makes a decision, it is not always clear whose responsibility it is to inform
the partners, and there is ambiguity about who is responsible for implementation.
Partners cited issues with internal partner competition, and a lack of staff partner
meetings to collaborate on and coordinate activities, excluding opportunities for the
partners to work together more cohesively.
DCEO has, in response to these issues, developed a regional management structure to
better mediate on issues related to communication, roles and responsibilities and the
overall goals of the program.


24                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 06-05-011-03-390
Two of Illinois’ One-Stop Centers have not Fully Implemented the Seamless Service Concept


Staffing shortages cause excessive waiting and a lack of direction for program
participants. A specific example cited is the lack of center greeters. Greeters expedite
customer flow by directing them to the services and resources needed. This avoids
excessive waiting in line, and directs clients to the appropriate services. There was
relative agreement at the center level that greater resources system-wide are required
to make the One-Stop concept work.
DCEO is responding to the issue of limited resources by moving toward a virtual One-
Stop system. DCEO believes this will be more cost effective and will provide better
access to information and services than the system relying solely on traditional bricks
and mortar. Customers will be able to self-serve themselves, at their own pace, to
answer many of their basic questions and link to services sooner and more consistently.

Overcoming resistance to cultural and system change was citied as an impediment to
effective service integration. Partners cited a lack of a driving force pushing full
integration, thus the pre-existing organizational structures and resistance to change are
the norm. Center staff will improvise to help out some partners on an ad hoc basis, but
the overall lack of inter-program knowledge and the absence of physical co-location of
some partners inhibit service integration. Beyond that, institutional barriers, including
political and work unit issues, are entirely beyond the control of any given One-Stop
center or local board.
DCEO recognizes these cultural and system change issues as cited in our baseline
study. DCEO’s new vision will address these service integration issues by putting a
greater emphasis on technology and relying less on personnel to deliver more effective
and consistent service to our customers.

Results and Finding: The State has not established a common intake system.

   C. Labor-funded program services and activities were reported in two
      different State agencies’ MIS.

DCEO and IDES use different MIS to report their services and clients information.
DCEO administers and maintains the Illinois Workforce Development System (IWDS)
for WIA services. The IDES administers and uses the internet-based Illinois Skills
Match (ISM) system as its main labor-exchange tool for ES services. The systems are
not integrated and do not communicate electronically, leading to duplication of effort.
Case managers must reenter client information into their system when clients are
enrolled into their programs, with dual records being maintained.
The two MIS systems were developed and implemented while WIA was administered by
IDES. DCEO cannot speak to the rationale used by IDES to create two systems that do
not easily share information. Nevertheless, DCEO must use the systems we inherited,
and we are currently implementing Illinois workNet, a more user-friendly web-based
interface that will provide better access to information.

While DCEO recognizes the advantage of having one system for seamless service
delivery, there are many applications in each department where converting to one
system will be a disadvantage. Implementing Illinois workNet will integrate information


U.S. Department of Labor—Office of Inspector General                                        25
Report Number: 06-05-011-03-390
Two of Illinois’ One-Stop Centers have not Fully Implemented the Seamless Service Concept




in the current systems to provide a more efficient and effective solution. Customers will
access the necessary data via a new internet-based interface; rather than an expensive
and cumbersome new MIS system.

Any discussion of implementing major MIS system changes at each agency must
be taken in the context of the agencies’ entire operation. The WIA program is a
small part of our partners’ operations. It is not justifiable to spend taxpayer dollars to
completely overhaul their MIS for such a small benefit.



     D. Non-Labor partner’s MIS are not linked, leading to duplication of effort.

Even though some non-Labor partners are represented at the center, they cannot
access client information from ISM or IWDS. Also, they cannot access their own
systems at the center and must perform data intake away from the center, at their main
office, in order to serve clients. These barriers lead to duplication of effort and do not
exemplify the seamless system concept.
DCEO recognized this issue from our baseline study. As a result, we are designing
Illinois workNet to address these issues by allowing access to non-Labor partners.

Recommendation

     2. We recommend that the Assistant Secretary for Employment and Training assist
        the State to coordinate with all partners to develop, implement, and encourage
        participation in a common intake system for all partners.
        Many local and statewide partners are involved in the development and design of
        the Illinois workNet system.


Results and Finding: The Local Boards have established MOUs, but they do not
facilitate the delivery of services and coordination between partner programs.

Recommendation

      3. We recommend that the Assistant Secretary for Employment and Training
         require that the State develop effective and functional memoranda of
         understanding, to help facilitate coordination and cooperation between all
         partners.
         The reviewers again extrapolate that every One-Stop has the same issues they
         found in their review of two centers. DCEO believes the reviewers’ lack of
         understanding of WIA policy may have worked to their detriment for this review.
         By not considering the DCEO baseline study or the development of Illinois
         workNet, the reviewers do not acknowledge Illinois is already taking tangible
         steps to address these issues.

26                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 06-05-011-03-390
Two of Illinois’ One-Stop Centers have not Fully Implemented the Seamless Service Concept




   •   At the State level, we:
           o Obtained and reviewed their annual WIA plan, 5-year strategic plan, and
              organizational chart.
           o Interviewed key staff responsible for One-Stop operations;
           o Obtained and reviewed policy directives issuing guidance regarding One-
              Stop operations.
           o Obtained and reviewed MOUs to determine coordination efforts;
           o Discussed the state MIS structure to gain a general understanding of the
              client information flow.

   There is one key item the review team did NOT consider in the review. DCEO
   undertook a comprehensive overview of the One-Stop implementation and
   discovered several opportunities to improve the system. DCEO began implementing
   changes to strengthen the One-Stop seamless service delivery. This DCEO initiated
   study and efforts in response to it were not acknowledged by the review. The report
   was made available to the reviewers and is also readily available on the DCEO
   website, but was inexplicably not taken into consideration. Attached is a copy
   of our report for your consideration.
   (http://www.commerce.state.il.us/dceo/Bureaus/Workforce_Development/)

   •   At the One-Stop centers we:
           o Obtained and reviewed local strategic plan, policies and procedures, and
              other documents to understand how One-Stop services are provided.
           o Interviewed center partners and performed a center walk-through to
              understand how the center operates.
           o Met with MIS staff to understand how One-Stop service data is reported
              and the systems used by the various programs at the center.
           o Obtained and reviewed MOUs for compliance with WIA requirements, and
              to further understand how the One-Stop center is intended to operate.
           o Conclude whether mandatory and optional partners are served directly by
              the center or through referrals.
Based on DCEO’s review, this report relies heavily on anecdotal information that may
be less than fully accurate. It is not clear if the reviewers fully understand how the Illinois
One-Stop system is structured and implemented.


DCEO has three main concerns with this report:

1) The report is based mainly on anecdotal information.

2) The reviewers appear to not understand WIA policy to the extent necessary to
conduct a cogent review of the Illinois One-Stop system. The reviewers did not
acknowledge the realities of administering WIA programs via multiple agencies.



U.S. Department of Labor—Office of Inspector General                                        27
Report Number: 06-05-011-03-390
Two of Illinois’ One-Stop Centers have not Fully Implemented the Seamless Service Concept


3) The reviewers did not incorporate our own review of the entire One-Stop operation,
nor did they take into consideration the improvements DCEO has begun to implement
based on that review.

In the end, DCEO is more comfortable with our own, thorough review and we intend to
continue implementing system improvements based on that analysis.




28                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 06-05-011-03-390
